APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Eighth Circuit, LSP Transmission
Holdings, LLC v. Sieben, No. 18-2559
(Mar. 25, 2020)............................................. App-1
Appendix B
Order, United States Court of Appeals for
the Eighth Circuit, LSP Transmission
Holdings, LLC v. Sieben, No. 18-2559
(June 8, 2020) ............................................ App-22
Appendix C
Memorandum Opinion and Order, United
States District Court for the District of
Minnesota, LSP Transmission Holdings,
LLC v. Lange (June 21, 2018) ................... App-24
Appendix D
Relevant Statutory Provisions .................. App-50
Minn. Stat. § 216B.246 ....................... App-50
Minn. Stat. § 216B.02, subd. 10 ......... App-52

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________
No. 18-2559
________________
LSP TRANSMISSION HOLDINGS, LLC,
v.

Plaintiff-Appellant,

KATIE SIEBEN, Commissioner, Minnesota Public
Utilities Commission, each in his or her official
capacity, et al.,
Defendants-Appellees.
ITC MIDWEST LLC; NORTHERN STATES POWER
COMPANY, doing business as Xcel Energy,
Intervenors belowAppellees,
________________
Submitted: Oct. 16, 2019
Filed: Mar. 25, 2020
________________
Before: SMITH, Chief Judge, GRUENDER and
BENTON, Circuit Judges.
________________
OPINION
________________

App-2
SMITH, Chief Judge.
LSP Transmission Holdings, LLC (LSP) filed this
appeal
against
Minnesota’s
Public
Utilities
Commission and Department of Commerce; ITC
Midwest, LLC (ITC); and Northern States Power
Company doing business as Xcel Energy (“Xcel”)
(collectively, “Appellees”). LSP asserts that the
district court1 erred in deciding that Minnesota’s right
of first refusal (ROFR) provision does not violate the
dormant Commerce Clause. The provision grants
incumbent electric transmission owners a ROFR to
construct, own, and maintain electric transmission
lines that connect to their existing facilities. Minn.
Stat. § 216B.246, subdiv. 2. Upon de novo review, we
affirm.
I.

Background

A. Federal ROFR
Pursuant to the Federal Power Act (FPA), the
Federal Energy Regulatory Commission (FERC)
regulates interstate transmission of electricity and the
sale of electricity at wholesale in interstate commerce.
LSP Transmission Holdings, LLC v. Lange, 329 F.
Supp. 3d 695, 700 (D. Minn. 2018) (citing 16 U.S.C.
§ 824(b)(1)). States, however, retain jurisdiction over
the retail sale of electricity and the generation,
transmission, and distribution of electricity in
intrastate commerce. Id. (citing 16 U.S.C. § 824(b)(1)).
FERC is also authorized to “divide the country
into
regional
districts
for
the
voluntary
interconnection and coordination of facilities for the
1 The Honorable Donovan W. Frank, United States District
Judge for the District of Minnesota.

App-3
generation, transmission, and sale of electric energy”
and to “promote and encourage such interconnection
and coordination within each such district and
between such districts.” Id. (quoting 16 U.S.C.
§ 824a(a)).
“Regionally,
FERC-approved
nongovernmental agencies, independent system
operators (‘ISO’s), oversee the operation and
expansion of electric transmission grids. Each ISO
issues a tariff, which establishes the terms by which
its members build and operate grids. These tariffs are
subject to the approval of FERC.” Id. at 700-01
(internal citations omitted).
Before issuing Order 1000, FERC allowed
incumbent public utility transmission providers to
exercise their federal ROFR. Under that regulatory
regime, incumbents held priority status in choosing to
construct new electric transmission lines in their
respective service territories. See id. at 701 (citing
MISO Transmission Owners v. FERC, 819 F.3d 329,
332 (7th Cir. 2016)). In 2011, “FERC issued Order
1000,” which in part, “eliminated the federal ROFR.”
Id. (citing Transmission Planning & Cost Allocation
by Transmission Owning & Operating Pub. Utils., 136
FERC 61051, 3 ¶ 7 (2011) (hereinafter “Order 1000”)).
Order 1000 specifically “direct[s] public utility
transmission providers to remove from their [Open
Access Transmission Tariffs] or other Commissionjurisdictional tariffs and agreements any provisions
that grant a federal right of first refusal to
transmission facilities that are selected in a regional

App-4
transmission plan for purposes of cost allocation.”
Order 1000 at 3 ¶ 7.2
In substance, FERC’s Order 1000 reformed “its
electric transmission planning and cost allocation
requirements for public utility transmission
providers.” Order 1000 at 1 ¶ 1 (citing 16 U.S.C.
§ 824e). “Order 1000 [is also] consistent with [FERC’s]
effort to manage electric grids on a regional level” but
“recognize[s] that states c[an] continue to regulate
electric transmission lines.” LSP Transmission, 329 F.
Supp. 3d at 701 (“We acknowledge that there is
longstanding state authority [over] certain matters
that are relevant to transmission planning and
expansion, such as matters relevant to siting,
permitting, and construction. However, nothing
in . . . [Order 1000] involves an exercise of siting,

“A ‘transmission facility selected in a regional transmission
plan for purposes of cost allocation’ is one that has been selected,
pursuant to a Commission-approved regional transmission
planning process, as a more efficient or cost-effective solution to
regional transmission needs.” Order 1000 at 2 ¶ 5. The
elimination of the federal ROFR did not apply to utilities that
were not selected in a regional transmission plan for purposes of
cost allocation. See id. at 3 ¶ 7.
2

This limitation was born of . . . [FERC’s] concern that
a complete ban could potentially threaten grid
reliability if nonincumbents failed to complete needed
projects in a timely fashion. The upshot was that rights
of first refusal could be retained for facilities located
wholly within the service territory of an incumbent
whose development costs would not be spread to other
parties . . .
S.C. Pub. Serv. Auth. v. FERC, 762 F.3d 41, 73 (D.C. Cir. 2014).

App-5
permitting, and construction authority.” (quoting
Order 1000 at 33 ¶ 107)).
B. State ROFR
Regionally, Minnesota is governed by the FERCapproved regional transmission entity known as
Midcontinent Independent System Operator (MISO).
Id. “In accordance with Order 1000, MISO removed
the federal ROFR provisions from its tariff.” Id.
Thereafter, in response to Order 1000, Minnesota,
along with other states,3 enacted a state statutory
ROFR. Id. (citing Minn. Stat. § 216B.246, subdiv. 2).
Minnesota’s ROFR law provides the following:
An incumbent electric transmission owner
has the right to construct, own, and maintain
an electric transmission line that has been
approved for construction in a federally
registered planning authority transmission
plan and connects to facilities owned by that
incumbent electric transmission owner. The
right to construct, own, and maintain an
electric transmission line that connects to
facilities owned by two or more incumbent
electric
transmission
owners
belongs
individually and proportionally to each
incumbent electric transmission owner,
unless otherwise agreed upon in writing. This
section does not limit the right of any
incumbent electric transmission owner to
3 “In response to Order 1000, several states enacted their own
ROFR laws.” LSP Transmission, 329 F. Supp. 3d at 701 n.3 (citing
N.D. Cent Code § 49-03-02.2; S.D. Codified Laws § 49-32-20; Neb.
Rev. Stat. § 70-1028; 17 Okla. Stat. § 292).

App-6
construct,
own,
and
maintain
any
transmission equipment or facilities that
have a capacity of less than 100 kilovolts.
Minn. Stat. § 216B.246, subdiv. 2.
After MISO removed the federal ROFR and
incorporated Minnesota’s ROFR into its tariff, FERC
approved the tariff. LSP Transmission, 329 F. Supp.
3d at 702 (citing Midwest Indep. Transmission Sys.
Operator, Inc., 150 FERC 61037, 61176 ¶ 25 (2015)
(hereinafter “MITSO”)). LSP, a transmission company
based outside of Minnesota, challenged MISO’s tariff.
FERC, however, ruled that MISO is authorized to
consider state laws in the regional transmission
planning process. Based on FERC’s ruling, LSP
requested a rehearing. LSP argued, in part, “that
FERC should preclude states from enacting ROFR
laws.” Id. (citing MITSO at 61176 ¶ 24). FERC
subsequently denied LSP’s request for rehearing. Id.
(citing MITSO at 61176 ¶ 25).
C. Procedural History
After FERC denied LSP’s request for rehearing,
LSP first filed a petition for review against FERC,
which was denied by the Seventh Circuit. See MISO
Transmission Owners, 819 F.3d at 337. LSP
contended that FERC erred in allowing MISO to
recognize state ROFR laws. Id. at 336. The Seventh
Circuit ultimately held that FERC’s goal—“to avoid
intrusion on the traditional role of the States in
regulating the siting and construction of transmission
facilities”—was proper and that Order 1000
terminated the federal ROFR, not ROFR laws enacted
by states. Id. (internal quotation omitted).

App-7
Prior to LSP filing the present lawsuit, Xcel—a
Minnesota-based
public
utility—and
ITC—a
Minnesota-based transmission company—“jointly
exercised their rights of first refusal under
§ 216B.246” to construct the Huntley-Wilmarth line.
LSP Transmission, 329 F. Supp. 3d at 703. The line is
a proposed 345 kilovolt electric transmission line that
was approved by FERC and is projected to traverse
Minnesota for approximately 40 miles. Id. It “will
connect two substations—[Xcel’s] existing Wilmarth
substation north of Mankato, Minnesota and
ITC[’s] . . . Huntley
substation, . . . south
of
Winnebago,
Minnesota,”
which
was
under
construction at the time LSP filed its complaint
against the Appellees. Id. “The [line] is scheduled to
be complete[d] by January 1, 2022.” Id.
In September 2017, LSP filed the instant lawsuit
against Minnesota’s Public Utilities Commission and
Department
of
Commerce,
challenging
the
constitutionality of Minnesota’s ROFR provision. LSP
argued that the law violates the dormant Commerce
Clause by discriminating against or placing an undue
burden on interstate commerce. Eventually, Xcel and
ITC intervened as defendants. Appellees then filed
separate motions to dismiss LSP’s complaint for
failure to state a claim.
The district court granted the motions. In doing
so, the court concluded that General Motors Corp. v.
Tracy, 519 U.S. 278 (1997), forecloses LSP’s
arguments that Minnesota’s ROFR law overtly
discriminates against nonincumbent or out-of-state
transmission companies. The court also determined
that even if Tracy does not foreclose LSP’s overt-

App-8
discrimination arguments, its arguments still fail
because Minnesota’s ROFR applies equally to all
incumbent electric transmission owners. Both in-state
and out-of-state owners may use the ROFR and, thus,
it does not discriminate for the former or against the
latter.
As for LSP’s contentions that Minnesota’s ROFR
law also places an undue burden on interstate
commerce, the district court held that Minnesota’s
interest in regulating its own local electricity market
outweighs any incidental effects on interstate
commerce. After the court entered its order dismissing
LSP’s complaint, LSP filed this appeal.4
II. Discussion
A. Standard of Review
We review de novo the district court’s dismissal of
LSP’s complaint. U.S. ex rel. Raynor v. Nat’l Rural
Utils. Coop. Fin., Corp., 690 F.3d 951, 955 (8th Cir.
2012). “In deciding a motion to dismiss under Rule
12(b)(6), a court assumes all facts in the complaint to
be true and construes all reasonable inferences most
favorably to the complainant.” Id. And while “a
complaint need not contain ‘detailed factual
allegations,’ it must contain facts with enough
specificity ‘to raise a right to relief above the
speculative level.’” Id. (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007)). With that said,
“[t]o survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
4 A number of amici also filed briefing: one in support of LSP,
two in support of the Appellees, and one—filed by the United
States—as a neutral advisor.

App-9
‘state a claim to relief that is plausible on its face.’” Id.
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
“Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice.” Id. (quoting Iqbal, 556 U.S. at 678).
B.

Constitutionality

The Commerce Clause “grants Congress the
power to regulate commerce between the states.” IESI
AR Corp. v. Nw. Ark. Reg’l Solid Waste Mgmt. Dist.,
433 F.3d 600, 604 (8th Cir. 2006) (citing U.S. Const.
art I, § 8, cl. 3). “Implicit within the Commerce Clause
is a negative or dormant feature that prevents
individual states from regulating interstate
commerce.” Id. (quoting United Waste Sys. of Iowa,
Inc. v. Wilson, 189 F.3d 762, 765 (8th Cir. 1999)). In
other words, “[t]he dormant Commerce Clause keeps
states from enacting ‘laws that discriminate against or
unduly burden interstate commerce.’” Id. (quoting
S.D. Farm Bureau, Inc. v. Hazeltine, 340 F.3d 583, 592
(8th Cir. 2003)).
When analyzing allegations that a state or local
law violates the dormant Commerce Clause, we
examine the law for the presence of both overt and
non-overt discrimination. Hampton Feedlot, Inc. v.
Nixon, 249 F.3d 814, 818 (8th Cir. 2001). “First, if the
law in question overtly discriminates against
interstate commerce, we will strike the law unless the
state or locality can demonstrate, ‘under rigorous
scrutiny, that it has no other means to advance a
legitimate local interest.’” Id. (quoting U & I
Sanitation v. City of Columbus, 205 F.3d 1063, 1067
(8th Cir. 2000)). “The discrimination may take one of
three forms. The law may be discriminatory on its face

App-10
or, even if it is facially neutral, the law may have a
discriminatory purpose or a discriminatory effect.” U
& I Sanitation, 205 F.3d at 1067. Under the dormant
Commerce Clause, a law is discriminatory if it benefits
in-state economic interests while also inordinately
burdening out-of-state economic interests. Hampton
Feedlot, 249 F.3d at 818.
“Second, even if a law does not overtly
discriminate against interstate commerce, the law will
be stricken if the burden it imposes upon interstate
commerce is ‘clearly excessive in relation to the
putative local benefits.’” Id. (quoting U & I Sanitation,
205 F.3d at 1067). This is the Pike balancing test. See
S.D. Farm Bureau, 340 F.3d at 593 (citing Pike v.
Bruce Church, Inc., 397 U.S. 137 (1970)). Essentially,
“[t]hose challenging the legislative action have the
burden of showing that the statute’s burden on
interstate commerce exceeds its local benefit.”
Hampton Feedlot, 249 F.3d at 818.
1.

Overt Discrimination

As a preliminary matter, the parties extensively
argue whether the Supreme Court’s decision in Tracy
forecloses LSP’s arguments that the Minnesota ROFR
provision overtly discriminates against nonincumbent
and out-of-state transmission companies. Tracy held
that Ohio’s differential tax treatment of natural gas
sales by regulated local gas utilities and unregulated
producers or marketers—whether in state or out of
state—did not violate the Commerce Clause. 519 U.S.
at 310. In reaching its holding, the Supreme Court
concluded that Ohio’s favorable tax treatment of local
utilities whose natural gas sales or distribution to
consumers were tax-exempt did not violate the

App-11
Commerce Clause because the local distribution
utilities were not similarly situated to the producers
or marketers. Id. at 287-310.
Here, the district court pointed out that “[m]any
of the entities that own existing transmission facilities
[in Minnesota] are regulated public utilities, who
serve captive markets and have monopolies with
respect to the sale of electricity to consumers.” LSP
Transmission, 329 F. Supp. 3d at 707. The court found
that Tracy’s reasoning applies in the present case
because LSP, as an unregulated transmission
company, is not similarly situated to Minnesota’s
regulated utilities and transmission companies—“the
existing transmission line owners with a right of first
refusal.” Id. at 708. The court thus concluded that the
Minnesota ROFR law did not discriminate against
LSP.
We do not, however, need to decide whether Tracy
is applicable. If controlling, Tracy would only resolve
the overt discrimination issue of the dormant
Commerce Clause analysis, and the non-overt undue
burden question would remain. We would have to
consider the latter under the Pike balancing test.
Therefore, accepting as true the allegation in the
complaint
that
Minnesota-defined
incumbent
transmission owners and LSP are competitors, i.e.,
similarly situated, in the transmission expansion or
development market, we address LSP’s arguments
using the full dormant Commerce Clause analysis.
a.

Facial Discrimination

“A statute ‘overtly discriminates’ if it is
discriminatory on its face, in its purpose, or through
its effects.” R & M Oil & Supply, Inc. v. Saunders, 307

App-12
F.3d 731, 734 (8th Cir. 2002) (quoting U & I
Sanitation, 205 F.3d at 1067). “The burden to show
discrimination rests on [LSP who is] challenging the
validity of” Minnesota’s ROFR law. Hughes v.
Oklahoma, 441 U.S. 322, 336 (1979). LSP asserts that
the Minnesota law expressly grants a ROFR to instate entities only and thus gives them impermissible
preferential treatment “to build new MISO-approved
transmission lines in Minnesota.” Appellant’s Br. at
25. LSP also argues that Minnesota’s ROFR provision
is indistinguishable from the various “flow control”
laws that this court and the Supreme Court have
invalidated. Id. at 26-27 (citing Ben Oehrleins & Sons
& Daughter, Inc. v. Hennepin Cty., 115 F.3d 1372,
1376 (8th Cir. 1997) (affirming that provisions of
county ordinance “prevent[ing] the delivery of County
waste
to
out-of-state
processors
are
5
unconstitutional”)). And according to LSP, the
district court should not have disregarded its facialdiscrimination claim on the basis that some of
Minnesota’s incumbents with in-state operations are
headquartered in other states. LSP claims, “What
matters for purposes of determining whether an entity
is in-state is not where it is headquartered, but
whether it has a meaningful in-state presence.”
Appellant’s Br. at 28.
LSP’s facial-discrimination claim fails. The
district court concluded that Minnesota’s ROFR
LSP also cites two Supreme Court flow-control decisions,
which include C & A Carbone, Inc. v. Town of Clarkstown, 511
U.S. 383 (1994); Fort Gratiot Sanitary Landfill, Inc. v. Mich.
Dep’t of Nat. Res., 504 U.S. 353 (1992). These cases do not involve
interests that are comparably similar to the present case.
5

App-13
“statute draws a neutral distinction between existing
electric transmission owners whose facilities will
connect to a new line and all other entities, regardless
of whether they are in-state or out-of-state.” LSP
Transmission, 329 F. Supp. 3d at 708. We agree.
Minnesota’s ROFR law states, “An incumbent
electric transmission owner has the right to construct,
own, and maintain an electric transmission line that
has been approved for construction in a federally
registered planning authority transmission plan and
connects to facilities owned by that incumbent electric
transmission owner.” Minn. Stat. § 216B.246, subdiv.
2. The Minnesota law further defines an “[i]ncumbent
electric transmission owner” as “any public utility that
owns, operates, and maintains an electric
transmission line in this state; any generation and
transmission cooperative electric association; any
municipal power agency; any power district; any
municipal utility; or any transmission company.” Id.
§ 216B.246, subdiv. 1(c). Currently, incumbents in
Minnesota include entities headquartered in Iowa,
North Dakota, South Dakota, Wisconsin, and
Minnesota. Many of these entities also own and
operate facilities in states other than Minnesota.
LSP argues that the headquarters site for entities
treated as Minnesota incumbents should be irrelevant
to our discrimination analysis. Relying on our
Oehrleins decision, LSP urges us to decide that these
incumbents have meaningful Minnesota operations
and, therefore, should be considered in-state entities
who are not discriminated against by Minnesota’s
ROFR provision. See 115 F.3d at 1386-87. LSP states

App-14
that the Minnesota law is per se invalid against outof-state entities.6
We disagree. Oehrleins involved a county
ordinance that required waste generated within the
county to be transferred to facilities within that same
county. This court rejected plaintiffs’ “‘market access’
theory” argument, which “assume[d] that an out-ofstate concern that permanently locates an operation
within the state is still an ‘out-of-state’ entity that can
complain that a law that even-handedly restricts a
local market is ‘discriminatory.’” Id. at 1386.
We further stated:
A Delaware corporation doing business in
Minnesota could not argue that it is
discriminated against by Minnesota laws
that apply equally to all businesses operating
in the state. South Dakota companies may
cho[o]se not to locate operations in Minnesota
because of comparatively high state taxes
that apply to all businesses, but this is not
discrimination under the Commerce Clause.
Id. at 1386-87. “It would be a different matter, of
course, if the state were to treat a company
For additional support, LSP also cites to Florida
Transportation Services., Inc. v. Miami-Dade County, 703 F.3d
1230, 1259 (11th Cir. 2012) (stating that the Commerce Clause
demands a focus on “where [a] company’s business takes place or
where its political influence lies”); and Walgreen Co. v. Rullan,
405 F.3d 50, 58 (1st Cir. 2005) (refusing to hold “that a favored
group must be entirely in-state for a law to have a discriminatory
effect on commerce”). These cases are distinguishable because
they do not consider state regulation of certain matters relevant
to transmission planning and expansion.
6

App-15
incorporated or principally located in another state
differently from Minnesota companies on that basis.”
Id. at 1387 n.13. Such is not the case here. Minnesota’s
preference is for electric transmission owners who
have existing facilities, and its law applies
evenhandedly to all entities, regardless of whether
they are Minnesota-based entities or based elsewhere.
In some instances, laws that restrain both
intrastate and interstate commerce may be
discriminatory. This is not such an instance. FERC
continues to acknowledge “longstanding state
authority over certain matters that are relevant to
transmission planning and expansion, such as
matters relevant to siting, permitting, and
construction.” Order 1000 at 33 ¶ 107. The building of
transmission lines inheres in the processes of siting,
permitting, and constructing, which are integral to
transmission planning and expansion. As the
Supreme Court aptly stated, “We cannot . . . accept
appellants’ underlying notion that the Commerce
Clause protects the particular structure or methods of
operation in a . . . market.” Exxon Corp. v. Governor of
Md., 437 U.S. 117, 127 (1978).
After reviewing the plain language of Minnesota’s
ROFR law, we hold that this law is not facially
discriminatory. LSP’s facial-discrimination claim
fails.7
7 Appellees correctly note that it would be somewhat awkward
to label a Minnesota law as discriminatory despite benefitting a
company that has an operation in Minnesota but is principally
located or headquartered elsewhere. Although briefly discussed
in Oehrleins, we have not squarely addressed the issue of
whether an entity that has an in-state presence but is

App-16
b.

Discriminatory Purpose

“In determining whether a regulation has a
discriminatory purpose, courts consider both direct
and indirect evidence.” IESI AR Corp., 433 F.3d at
604.
This includes: 1) statements by lawmakers; 2)
the sequence of events preceding the
[statute]’s adoption, including irregularities
in the procedures; 3) the state’s consistent
pattern of discriminating against, or
disparately impacting, a particular class of
persons; 4) the [statute]’s historical
background, including whether it has been
historically used to discriminate; and 5) the
[statute]’s use of highly ineffective means to
promote the legitimate interest asserted by
the state.
Id. LSP, based on its complaint and public documents,
posits that Minnesota’s ROFR provision has a
discriminatory purpose. It cites the provision’s
legislative history. LSP points to supporters’ hearing
testimony and asserts that “Minnesota lawmakers
openly sought to insulate incumbent transmission
owners from competition introduced by Order No.
1000.” Appellant’s Br. at 36.
Appellees, on the other hand, contend that
Minnesota’s “purpose in regulating electricity is to
provide consumers ‘in . . . [Minnesota] with adequate
and reliable services at reasonable rates.’”
headquartered elsewhere is considered an in-state entity for the
purpose of dormant Commerce Clause review. We need not do so
now.

App-17
Intervenors-Appellees’ Br. at 47 (quoting Minn. Stat.
§ 216B.01). They also explain that the legislative
history of the Minnesota ROFR law reveals that the
Minnesota
legislature
previously
considered
alternatives to the statute but decided it was more
appropriate to maintain its “longstanding, successful
regulatory approach for selecting the owners and
operators of transmission lines.” Id.
Out
of
16
incumbents,
there
are
“eleven . . . headquartered in Minnesota” that also
“own 16,229 miles, or 87 percent, of transmission
line[s] in Minnesota.” Compl. at 22, LSP Transmission
Holdings, LLC v. Swanson, et al., No. 0:17-cv-04490DWF-HB (D. Minn. Sept. 29, 2017), ECF No. 1. LSP
also states that the four largest owners—three of
which are utilities—comprise at least “79 percent of
transmission line assets in Minnesota.” Id. at 23. This,
along with the hearing testimony, reflects that
Minnesota’s ROFR law is not primarily aimed at
protecting in-state interests but at maintaining a
regulatory system that has worked and provided
“adequate and reliable services at reasonable rates” to
Minnesota residents. Intervenors-Appellees’ Br. at 47
(quoting Minn. Stat. § 216B.01). Cost effective and
reliable electricity transmission remains vital for
efficient distribution to those residents.
Significantly, state police power includes
regulating utilities. Ark. Elec. Coop. Corp. v. Ark. Pub.
Serv. Comm’n, 461 U.S. 375, 377 (1983). Such state
regulation inherently involves siting, permitting, and
constructing transmission lines. Further, FERC has
left such control to state authority and has not deemed
that state ROFR laws use “highly ineffective means”

App-18
to accomplish the interests of states. The Seventh
Circuit agreed when it denied LSP’s petition for
review against FERC. On this record, we cannot
conclude that Minnesota’s ROFR provision has a
discriminatory purpose, and we affirm the district
court’s dismissal of LSP’s discriminatory-purpose
claim.
c.

Discriminatory Effect

We now address whether Minnesota’s ROFR law
is discriminatory in its effect. “A regulation
discriminates in effect if it favors in-state economic
interests over out-of-state interests.” IESI AR Corp.,
433 F.3d at 605. LSP claims that Minnesota’s ROFR
provision produces disproportionate, discriminatory
effects because of the 16 incumbents, 11 are
Minnesota-based, and only 5 are based elsewhere.
Appellees respond by arguing that “nothing in
§ 216B.246 imposes any greater burden on out-ofstate entities trying to enter the transmission-line
market than it does on Minnesota entities—they are
all excluded unless they own or buy the transmission
facility in Minnesota to which the new transmission
line will connect.” Intervenors-Appellees’ Br. at 45.
As discussed above, many of the incumbents that
possess the ROFR under Minnesota’s law are
headquartered in Minnesota. These entities control
most of the transmission lines in Minnesota. Three out
of the four top majority owners are utilities. LSP’s
argument that disproportionate ownership by
incumbents shows discriminatory effects misses the
point. States have traditionally regulated utilities,
and FERC continues to recognize the important role
states play in regulating the siting, permitting, and

App-19
constructing of transmission lines as transmission
needs are planned and expanded.
Minnesota’s decision to allow entities other than
utilities,
such
as
independent
transmission
companies, to qualify as incumbents does not show an
intent to favor in-state interests. If an entity does not
already own an existing transmission facility in
Minnesota, then it—whether a Minnesota or an outof-state entity—faces the incidental hurdle that is
placed by the Minnesota ROFR provision. If an
incumbent owner chooses not to exercise its ROFR, for
whatever reason, then other entities, including LSP,
can seek approval and gain transmission facilities in
Minnesota. Simply put, we discern no discriminatory
effect.
2. Undue Burden
Because Minnesota’s ROFR provision does not
discriminate against out-of-state interests, we
consider LSP’s undue-burden claim. LSP contends
that the Minnesota law violates the Commerce Clause
under the Pike balancing test. “That test requires
balancing a legitimate local public interest against its
incidental burden on interstate commerce.” S. Union
Co. v. Mo. Pub. Serv. Comm’n, 289 F.3d 503, 508 (8th
Cir. 2002). A law fails this balancing analysis when
“the burden imposed on such commerce is clearly
excessive in relation to the putative local benefits.”
Pike, 397 U.S. at 142.
LSP alleges that the state law is burdensome
because it cannot compete for Minnesota’s MISOapproved transmission projects. Additionally, it
argues that the law has a negative aggregate effect
because “if every state were to adopt a ROFR statute,

App-20
the cumulative effect of such statutes would nullify
Order No. 1000’s abolition of federal ROFRs and
eliminate competition in the market.” Appellant’s Br.
at 53. It further adds that the Minnesota law’s
purported benefits are speculative.
Conversely, Appellees argue that LSP alleges
insufficient facts to sustain its substantial burden for
asserting a Pike claim. They claim that “[n]one of the
cases that LSP cites in its balancing analysis address
any state interest comparable to the interest in
regulating utilities.”8 Intervenors-Appellees’ Br. at 51.
They also assert that if any federal action is
warranted, Congress—not the courts—is best suited
to take it.
Minnesota enacted its ROFR law, in part, in
response to the uncertainty produced by FERC’s
Order 1000. Its goal was “to preserve the historicallyproven status quo for the construction and
maintenance of electric transmission lines.”
Defendants-Appellees’ Br. at 34. This goal is within
the purview of a State’s legitimate interest in
regulating the intrastate transmission of electric
energy. See 16 U.S.C. § 824(b)(1). Put differently,
“unlike the regulation of natural gas, a field in which
FERC has jurisdiction both over pricing and over the
siting of interstate lines, the states retain authority
over the location and construction of electrical
transmission lines.” Ill. Commerce Comm’n v. FERC,
LSP cites Pike, 397 U.S. at 137; Cotto Waxco Co. v. Williams,
46 F.3d 790 (8th Cir. 1995); and Pioneer Military Lending, Inc. v.
Manning, 2 F.3d 280 (8th Cir. 1993). Once more, the contexts and
interests in the aforesaid cases are not analogous to that involved
in the instant case.
8

App-21
721 F.3d 764, 773 (7th Cir. 2013) (internal citation
omitted).
The second part of the Pike balancing test requires
us to consider the burden imposed on interstate
commerce. Minnesota’s ROFR law could affect LSP’s
ability to build MISO-approved transmission lines in
Minnesota. But from an aggregate standpoint, this
record does not establish that the cumulative effect of
state ROFR laws would eliminate competition in the
market completely. Incumbents are not obligated to
exercise their ROFRs, and some incumbents may not
be obligated by their states’ public utilities or service
commissions to build federally-approved transmission
lines. Moreover, FERC’s Order 1000 did not eliminate
the federal ROFR for incumbents not selected in
regional transmission plans for purposes of cost
allocation.
We also note that “the Supreme Court has rarely
invoked Pike balancing to invalidate state regulation
under the Commerce Clause.” S. Union Co., 289 F.3d
at 509. Hence, we cannot say that the burden imposed
by Minnesota’s ROFR law is clearly excessive in
relation to Minnesota’s legitimate state interests in
regulating its electric industry and maintaining the
status quo. We, therefore, affirm the dismissal of
LSP’s undue-burden claim.
III. Conclusion
For the foregoing reasons, we affirm the district
court’s dismissal of LSP’s complaint.

App-22
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
________________
No. 18-2559
________________
LSP TRANSMISSION HOLDINGS, LLC,
v.

Plaintiff-Appellant,

KATIE SIEBEN, Commissioner, Minnesota Public
Utilities Commission, each in his or her official
capacity, et al.,
Defendants-Appellees.
ITC MIDWEST LLC; NORTHERN STATES POWER
COMPANY, doing business as Xcel Energy,
Intervenors belowAppellees,
________________
Filed: June 8, 2020
________________
ORDER
________________
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
Judge Loken and Judge Stras did not participate
in the consideration or decision of this matter.
June 08, 2020

App-23
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
______________________________
/s/ Michael E. Gans

App-24
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
________________
No. 17-4490
________________
LSP TRANSMISSION HOLDINGS, LLC,
v.

Plaintiff,

NANCY LANGE, Commissioner and Chair, Minnesota
Public Utilities Commission, each in his or her
official capacity, et al.,
Defendants.
ITC MIDWEST LLC; NORTHERN STATES POWER
COMPANY, doing business as Xcel Energy,
IntervenorDefendants.
________________
Filed: June 21, 2018
________________
MEMORANDUM OPINION AND ORDER
________________
INTRODUCTION
This matter involves a Constitutional challenge
under the dormant Commerce Clause to Minnesota
Statute § 216B.246, which grants incumbent electric
utilities a right of first refusal to build and own electric
transmission lines that connect to their existing
facilities. Plaintiff LSP Transmission Holdings

App-25
(“LSP”) alleges that the statute discriminates against
out-of-state transmission developers in favor of instate utilities. Defendants1 have filed separate
motions to dismiss LSP’s lawsuit. (Doc. Nos. 18, 37 &
48.) For the reasons set forth below, the Court grants
the motions.
BACKGROUND
This
case
involves
electric
generation,
transmission, and delivery. Electricity is provided to
consumers in three steps: (1) electricity is generated
at various power plants; (2) electricity is transmitted
on an integrated system of large power lines
(“transmission lines”); and (3) electricity is then
distributed to consumers through a network of smaller
power lines (“distribution lines”). Electricity placed on
transmission lines becomes part of an integrated,
interstate system. State regulation of industries, such
as the electrical industry, has long been recognized as
a valid exercise of a state’s police powers. See Munn v.
Illinois, 94 U.S. 113, 126 (1876) (explaining that state
regulation of property that is used in a way that is of
public consequence is a valid exercise of the state’s
powers).

Defendants include the named Commissioners of the
Minnesota Public Utilities Commission (“PUC”), who have been
sued in their official capacities, and the Commissioner of the
Minnesota Department of Commerce (together, the “State
Defendants”); Intervenor Defendant Northern States Power
Company (“NSP”); and Intervenor Defendant ITC Midwest LLC
(“ITC Midwest”). In addition, an amicus brief was filed by Great
River Energy, Minnesota Power, Otter Tail Power Company, and
Southern Minnesota Municipal Power Agency. (Doc. No. 25.)
1

App-26
The principal federal statute governing electricity
generation and transmission is the Federal Power Act
(“FPA”), which was enacted in 1935. The Federal
Energy Regulatory Commission (“FERC”) exercises
authority over the interstate transmission of electric
energy and its sale at wholesale in interstate
commerce. 16 U.S.C. § 824(b)(1). States retain
jurisdiction over the retail sale of electric energy, as
well as the “local distribution” and “transmission of
electric energy in intrastate commerce.” Id. Under the
FPA, states have traditionally assumed all
jurisdiction over the approval or denial of permits for
the siting and construction of electric transmission
facilities. See Piedmont Envtl. Council v. FERC, 558
F.3d 304, 310 (4th Cir. 2009).
In Minnesota, electric service is provided by
monopolies. Electric utilities are assigned to service
areas. Minn. Stat. § 216B.37. Within the respective
service areas, each utility has “the exclusive right to
provide electric service at retail to each and every
present and future customer in its assigned area and
no [other] electric utility shall render or extend service
at retail.” Minn. Stat. § 216B.40. In Minnesota, the
PUC sets “just and reasonable” retail rates for public
utilities. Minn. Stat. §§ 216B.03-.04, and .79. The PUC
also ensures that each utility provides “safe, adequate,
efficient, and reasonable service” and “make[s]
adequate infrastructure investments.” Id.
FERC is empowered to “divide the country into
regional districts for the voluntary interconnection
and coordination of facilities for the generation,
transmission, and sale of electric energy” and has the
“duty”
to
“promote
and
encourage
such

App-27
interconnection and coordination within each such
district and between such districts.” 16 U.S.C.
§ 824a(a).
Regionally,
FERC-approved
nongovernmental agencies, independent system
operators (“ISO”s), oversee the operation and
expansion of electric transmission grids. (Doc. No. 1
(“Compl.”) ¶ 14.) Each ISO issues a tariff, which
establishes the terms by which its members build and
operate grids. (Id. ¶ 15.) These tariffs are subject to
the approval of FERC. (Id.) The Midcontinent
Independent System Operator (“MISO”) is the
regional planning entity that governs Minnesota.2 (Id.
¶ 16.)
Prior to 2011, FERC gave incumbent utilities a
federal right of first refusal (“ROFR”). Under this
system, if MISO approved construction of a new
electric transmission line, the MISO member that
distributed electricity in the area where the facility
was to be built had a ROFR. Miso Transmission
Owners v. FERC, 819 F.3d 329, 332 (7th Cir. 2016). In
2011, however, FERC issued Order 1000, which
eliminated the federal ROFR. See Transmission
Planning & Cost Allocation by Transmission Owning
& Operating Pub. Utils., 136 FERC 61051, 2011 WL
2956837 (“Order 1000”) ¶7. See also MISO
Transmission Owners v. FERC, 819 F.3d at 332. Order
1000 was consistent with the effort to manage electric
grids on a regional level. See Reg’l Transmission Orgs.,
89 FERC ¶ 61285, ¶ 1, 1999 WL 33505505, at *3 (Dec.
20, 1999); see also 18 C.F.R. § 35.34. At the same time,
Order 1000 recognized that states could continue to
2 MISO also governs other states and the Canadian province of
Manitoba. (Compl. ¶ 16.)

App-28
regulate electric transmission lines. (Order 1000
¶ 107) (“We acknowledge that there is longstanding
state authority of certain matters that are relevant to
transmission planning and expansion, such as
matters relevant to siting, permitting, and
construction. However, nothing in this Final Rule
involves an exercise of siting, permitting, and
construction authority.”). FERC further explained:
In developing the framework below, we have
sought to provide flexibility for public utility
transmission providers in each region to
propose, in consultation with stakeholders,
how best to address participation by
nonincumbents as a result of removal of the
federal right of first refusal from
Commission-jurisdictional
tariffs
and
agreements. However, we note that nothing in
this Final Rule is intended to limit, preempt,
or otherwise affect state or local laws or
regulations with respect to construction of
transmission facilities, including but not
limited to authority over siting or permitting
of transmission facilities. Public utility
transmission providers must establish this
framework in consultation with stakeholders
and we encourage stakeholders to fully
participate.
Order 1000 ¶ 227 (emphasis added).
In accordance with Order 1000, MISO removed
the federal ROFR provisions from its tariff. (Compl.
¶ 45.) Minnesota then enacted its own state ROFR

App-29
law, Minn. Stat. § 216B.246.3 Therefore, any new
MISO-approved transmission project in Minnesota
must comply with Minnesota’s ROFR law, which
provides in part:
An incumbent electric transmission owner
has the right to construct, own, and maintain
an electric transmission line that has been
approved for construction in a federally
registered planning authority transmission
plan and connects to facilities owned by that
incumbent electric transmission owner.
Minn. Stat. § 216B.246, subd. 2. If a proposed line
connects to more than one incumbent owner’s
facilities, both owners will receive the right to build
and operate the line “individually and proportionally”
with other owner(s). Id. In addition, the statute
authorizes the PUC to require an incumbent to build
the electric transmission line, taking into
consideration various issues, such as cost, efficiency,
and reliability. Id., subd. 3(b).4 Further, Minn. Stat.
§ 216B.246
defines
an
“incumbent
electric
transmission owner” as: “any public utility that owns,
operates, and maintains an electric transmission line
In response to Order 1000, several states enacted their own
ROFR laws. See, e.g., N.D. Cent Code § 49-03-02.2; S.D. Codified
Laws § 49-32-20; Neb. Rev. Stat. § 70-1028; 17 Okla. Stat. Ann.
§ 292.
3

Minn. Stat. § 216B.246 provides for a process by which
incumbent owners have a window of time in which to notify the
PUC whether they intend to exercise their ROFR; if an
incumbent indicates that it does not wish to build the proposed
line, it must explain the reason for its decision, and the PUC may
override that decision and order the incumbent to build the line.
Id., subd. 3(b).
4

App-30
in this state; any generation and transmission
cooperative electric associations; any municipal power
agency; any power district; any municipal utility; or
any transmission company . . . .” Minn. Stat.
§ 216B.246, subd. 1. Currently, “incumbents” in
Minnesota include entities headquartered in Iowa,
North Dakota, South Dakota, Wisconsin, and
Minnesota. (Compl. ¶ 64(a)-(p).) Many of these entities
also own and operate facilities in states other than
Minnesota. Id.5
FERC approved MISO’s tariff, and in particular
its decision to honor the state ROFR laws. Midwest
Indep. Transmission Sys. Operator, Inc., 150 FERC ¶
61037, 2015 WL 285969, at ¶ 25. FERC explained that
“even if a transmission project is subject to a state
[ROFR], the regional transmission planning process
still results in the selection for planning and cost
allocation purposes of transmission projects that are
more efficient or cost-effective than would have been
developed but for such processes.” Id. ¶ 16.
The primary purpose of Minn. Stat. § 216B.246 was to
preserve the status quo and avoid the uncertainty of a new
process for electric transmission development in Minnesota after
the Federal ROFR was eliminated. (Compl. ¶ 53 (bill was
intended to “preserve the status quo”).) This purpose is reflected
by the comments of Senator David Brown, one of the bill’s
authors, at the Senate committee hearing on the ROFR bill: “Our
regulated system has served Minnesota well, and our system is
reliable and our rates are fairly competitive. . . . If we choose not
to pass this legislation, we are moving into the world of the
unknown versus we have a very known process right now,
members. And I think it’s best to stick with that process. . . .”
(Doc. No. 22 (“Peick Aff.”) ¶ 2, Ex. A, Statement of Senator Brown
at 00:28 & 49:21.) The Court takes judicial notice of these
comments.
5

App-31
LSP objected to FERC’s ruling, arguing that
FERC should preclude states from enacting ROFR
laws. Id. ¶ 24. FERC held that “it is appropriate for
MISO to recognize state or local laws or regulations as
a threshold matter in the regional transmission
planning process.” Id. ¶ 25. FERC explained that
Order 1000 “struck an important balance between
removing barriers to participation by potential
transmission providers in the regional transmission
planning process and ensuring the nonincumbent
transmission developer reforms do not result in the
regulation of matters reserved to the states.” Id. ¶ 27.
LSP then sought judicial review of FERC’s ruling and
again argued that FERC should not have allowed
MISO to implement state ROFR laws. MISO
Transmission Owners, 819 F.3d at 336. The Seventh
Circuit Court of Appeals rejected LSP’s argument and
held that it was a “proper goal” for FERC “‘to avoid
intrusion on the traditional role of the States’ in
regulating the siting and construction of transmission
facilities.” Id. The Seventh Circuit also explained that
Order 1000 terminated the federal, not any state,
right of first refusal. Id. (“Order No. 1000 terminated
only federal rights of first refusal; it did not ‘limit,
preempt, or otherwise affect state or local laws or
regulations with respect to construction of
transmission facilities.’”).
This case involves the Huntley-Wilmarth line, a
proposed 345 kilovolt electric transmission line that is
proposed to run approximately 40 miles, wholly within
Minnesota. The Huntley-Wilmarth line will connect
two substations—NSP’s existing Wilmarth substation
north of Mankato, Minnesota and ITC Midwest’s
Huntley substation, which is currently under

App-32
construction, south of Winnebago, Minnesota. (Compl.
¶ 70; Doc. No. 40 (“Zylstra Decl.”) ¶ 4, Ex. C (Notice of
Intent) at 1.)6 On March 3, 2017, after the HuntleyWilmarth line was approved, NSP and ITC Midwest
jointly exercised their rights of first refusal under
§ 216B.246. In their Notice of Intent to the
Commission, NSP and ITC Midwest gave formal
notice that they “intend to construct, own and
maintain the Huntley-Wilmarth 345kv transmission
line project to be located in south central Minnesota.”
(Notice of Intent at 1.) NSP and ITC Midwest also filed
their Notice Plan on June 30, 2017. (Zylstra Decl. ¶ 4,
Ex. D.) The project is scheduled to be complete by
January 1, 2022. (Compl. ¶ 72.)
On September 29, 2017, LSP filed the present
lawsuit challenging the constitutionality of Minn.
Stat. § 216B.246. LSP argues that Minnesota’s ROFR
law violates the dormant Commerce Clause of the
United States Constitution. (See generally Compl.)
Specifically, Plaintiff alleges that Minn. Stat.
§ 216B.246 facially discriminates, or discriminates in
purpose or effect, against interstate commerce in the
construction and ownership of large transmission
facilities because it (1) gives “incumbent utilities with
an existing footprint in Minnesota the exclusive right
of first refusal to build transmission lines,” and
(2) effectively prohibits LSP and other out-of-state
participants from building transmission lines in
Minnesota. (Compl. ¶¶ 85-86.) LSP also alleges that,
even if Minn. Stat. § 216B.246 is not discriminatory, it
imposes an undue burden on interstate commerce. (Id.
6 The Court considers the Notice of Intent because it is
embraced by the Complaint.

App-33
¶¶ 91-92.) Defendants move to dismiss LSP’s
complaint for failure to state a claim.
DISCUSSION
I.

Statement of Interest

On April 13, 2018, the U.S. Government filed a
Statement of Interest on Behalf of the United States
of America. (Doc. No. 70.) The Government’s
statement was filed by the Justice Department’s
Antitrust Division. The Court allowed the parties to
respond to the Statement of Interest. (Doc. Nos. 7276.) As aptly noted by NSP and ITC Midwest, the
Antitrust Division’s statement is untimely, as it was
filed roughly two and one-half months after briefing
was completed. Moreover, the Antitrust Department
offers no explanation, let alone good cause, for its
delay. It is solely within the Court’s discretion to
permit or deny a statement of interest. See Creedle v.
Gimenez, Civ. No. 17-22477, 2017 WL 5159602, at *2
(S.D. Fla. Nov. 7, 2017). In exercising that discretion,
the Court can consider whether the information is
timely, useful, or otherwise necessary to the
administration of justice. Id. In light of the Antitrust
Division’s unjustified delay and the fact that this case
has been fully and thoroughly briefed by all other
parties, the interests of justice do not require the
Court to consider the Statement of Interest.
Accordingly, the Court declines to consider the
Statement of Interest. However, the Court has
reviewed the statement and notes that consideration
of the statement would not alter the Court’s decision.
II. Legal Standard
In deciding a motion to dismiss under Rule
12(b)(6), a court assumes all facts in the complaint to

App-34
be true and construes all reasonable inferences from
those facts in the light most favorable to the
complainant. Morton v. Becker, 793 F.2d 185, 187 (8th
Cir. 1986). In doing so, however, a court need not
accept as true wholly conclusory allegations, Hanten
v. Sch. Dist. of Riverview Gardens, 183 F.3d 799, 805
(8th Cir. 1999), or legal conclusions drawn by the
pleader from the facts alleged, Westcott v. City of
Omaha, 901 F.2d 1486, 1488 (8th Cir. 1990). A court
deciding a motion to dismiss may consider the
complaint, matters of public record, orders, materials
embraced by the complaint, and exhibits attached to
the complaint. See Porous Media Corp. v. Pall Corp.,
186 F.3d 1077, 1079 (8th Cir. 1999).
To survive a motion to dismiss, a complaint must
contain “enough facts to state a claim to relief that is
plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). Although a complaint need not
contain “detailed factual allegations,” it must contain
facts with enough specificity “to raise a right to relief
above the speculative level.” Id. at 555. As the
Supreme Court reiterated, “[t]hreadbare recitals of
the elements of a cause of action, supported by mere
conclusory statements,” will not pass muster under
Twombly. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(citing Twombly, 550 U.S. at 555). In sum, this
standard “calls for enough fact[s] to raise a reasonable
expectation that discovery will reveal evidence of [the
claim].” Twombly, 550 U.S. at 556.
III. Commerce Clause
The Commerce Clause expressly authorizes
Congress’s power to regulate interstate commerce.
U.S. Const. Art. I, § 8, cl. 3. The Commerce Clause has

App-35
a negative or dormant implication as well, prohibiting
states from enacting laws that discriminate or unduly
burden interstate commerce. Gen. Motors Corp. v.
Tracy, 519 U.S. 278, 287 (1997) (“Tracy”); Quill Corp.
v. North Dakota, 504 U.S. 298, 312 (1992). State laws
invite scrutiny under the dormant Commerce Clause
if they mandate “differential treatment of in-state and
out-of-state economic interests that benefits the
former and burdens the latter.” Granholm v. Heald,
544 U.S. 460, 472 (2005) (citation omitted). The
rationale behind the dormant Commerce Clause is to
prohibit economic protectionism, or state “regulatory
measures designed to benefit in-state economic
interests by burdening out-of-state competitors.”
Associated Indus. of Mo. v. Lohman, 511 U.S. 641, 647
(1994) (citation omitted). See also S. Union Co. v. Mo.
Pub. Serv. Comm’n, 289 F.3d 503, 508 (8th Cir. 2002)
(citation omitted) (noting the rationale behind the
dormant Commerce Clause).
When determining if a state law violates the
dormant Commerce Clause, the Court uses a two-step
inquiry. First, the Court asks whether the law overtly
discriminates against interstate commerce. R&M Oil
& Supply, Inc. v. Saunders, 307 F.3d 731, 734 (8th Cir.
2002). A state law “overtly discriminates” if it is
discriminatory on its face, in its purpose, or in its
effects. Id. In such a case, the state law “will be
invalidated unless the state can show, under rigorous
scrutiny, that it has no other means to advance a
legitimate local interest.” IESI AR Corp. v. Nw. Ark.
Reg’l Solid Waste Mgmt. Dist., 433 F.3d 600, 604 (8th
Cir. 2006); see also C&A Carbonne, Inc. v. Town of
Clarkstown, 511 U.S. 383, 392 (1994). If the state law
is not overtly discriminatory, the Court moves to the

App-36
second tier of the analysis. Under this tier, known as
the Pike-test, even if a statute regulates evenhandedly
to effectuate a legitimate, local public interest, the
Court will ask if the law imposes a burden on
interstate commerce that “is clearly excessive in
relation to its putative local benefits.” Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970). The burden of
demonstrating that a state law discriminates against
interstate commerce “rests on the party challenging
the validity of the statute.” Hughes v. Okla., 441 U.S.
322, 336 (1979). The Eighth Circuit has noted (citing
Supreme Court precedent) that courts exercise
caution in reviewing state utility regulations under
the dormant Commerce Clause, and explained that
“regulation of utilities is one of the most important of
the functions traditionally associated with the police
power of the States.” S. Union Co., 289 F.3d at 508
(quotation omitted).
Plaintiff argues that Minn. Stat. § 216B.246 both
overtly discriminates and fails the Pike test.
Defendants, on the other hand, argue that Minn. Stat.
§ 216B.246 is an evenhanded, non-discriminatory
state public-utility regulation that is presumptively
valid under the dormant Commerce Clause.
Defendants contend that the Supreme Court’s
decision in Tracy is dispositive and forecloses LSP’s
discrimination claim. Defendants also point out the
long history of judicial deference to utility regulation
and contend that Minnesota has made a reasonable
determination that the entities that own the facilities
to which new lines would connect are best positioned
to ensure the reliable delivery of power to Minnesota
consumers. In addition, Defendants argue that
Minnesota’s interest in regulating the provision of

App-37
electricity to its citizens outweighs any indirect effects
on interstate commerce.
A. General Motors Corp. v. Tracy
As an initial matter, the parties dispute the
proper application of the Supreme Court’s decision in
Tracy. Defendants argue that Tracy forecloses LSP’s
claim of discrimination. LSP, on the other hand,
argues that Tracy is inapposite and that Defendants
misconstrue and attempt to overextend the decision in
Tracy.
In Tracy, the Supreme Court reviewed an Ohio
statute that granted a tax exemption on retail sales
and use of natural gas to in-state regulated public
utilities and denied the same tax exemption to
interstate natural gas transmission companies. Id. at
281-82. General Motors, a purchaser of natural gas
from out-of-state marketers whose sales were subject
to the taxes, challenged the tax exemption under the
dormant Commerce Clause, arguing that the
exemption
discriminated
against
interstate
commerce. Id. at 297-98. The Supreme Court
considered the threshold issue of whether the Ohio
statute applied to “substantially similar entities.” Id.
at 298 (“Conceptually, of course, any notion of
discrimination assumes a comparison of substantially
similar entities.”). This inquiry is important because,
as noted by the Supreme Court, if a statute
distinguishes between “different entities” serving
“different markets,” there would be no discrimination.
Id. at 299. More specifically, if the entities are not
“substantially similar,” then “eliminating the tax or
other regulatory differential would not serve the
dormant Commerce Clause’s fundamental objective of

App-38
preserving a natural market for competition
undisturbed by preferential advantages conferred by
a State upon its residents or resident competitors.” Id.
In Tracy, the Supreme Court found that in-state
gas utilities served residential consumer end-users
through monopolies that exist independent of the
state statute at issue. Id. at 297-98, 302-03. In
contrast,
interstate
companies—out-of-state
marketers whose sales were subject to the taxes—did
not serve those residential consumers. Thus, with
respect to sales to consumers in these monopolies, the
local gas utilities and the out-of-state marketers were
not similarly situated because they did not compete.
Id. at 302-03. As to the sales to the consumers, the
dormant Commerce Clause had “no job to do.” Id. at
303.
The Supreme Court, however, also considered the
sale of natural gas to industrial consumers. Id. With
respect to these sales, the Supreme Court noted the
“possibility of competition” between the local utilities
and private businesses, and therefore also a possibility
of a dormant Commerce Clause violation. Id. The
Supreme Court asked whether “we should accord
controlling significance to the noncaptive market in
which they compete, or to the noncompetitive, captive
market in which the local utilities alone operate?” Id.
at 303-04. Despite the possibility of competition in the
noncaptive market, the Supreme Court held that the
state was justified in treating the utilities differently
in both markets. The Supreme Court held that it
would give controlling weight to the captive, monopoly
market:

App-39
First and most important, we must recognize
an obligation to proceed cautiously lest we
imperil the delivery by regulated [utilities] of
bundled gas to the noncompetitive captive
market. Second, as a Court we lack the
expertness and the institutional resources
necessary to predict the effects of judicial
intervention invalidating Ohio’s tax scheme
on the utilities’ capacity to serve this captive
market. Finally, should intervention by the
National Government be necessary, Congress
has both the resources and the power to strike
the balance between the needs of the
competitive market and captive markets.
Id. at 304. The Court went on to explain that “[w]here
a choice is possible . . . the importance of traditional
regulated service to the captive market makes a
powerful case against any judicial treatment that
might jeopardize [the utilities’] continuing capacity to
serve the captive market.” Id. The Supreme Court
further reasoned that:
[the state’s] regulatory response to the needs
of the local natural gas market has resulted
in a noncompetitive bundled gas product that
distinguishes its regulated sellers from
independent marketers to the point that the
enterprises should not be considered
‘similarly situated’ for purposes of facial
discrimination under the Commerce Clause.
Id. at 310. The Supreme Court in Tracy held that the
Ohio statute did not discriminate against interstate

App-40
commerce and did not run afoul of the dormant
Commerce Clause.7
In a recent decision, the Second Circuit Court of
Appeals applied Tracy when considering a dormant
Commerce Clause challenge to a Connecticut program
that distinguished between in-state and out-of-state
entities in the electricity market. The Connecticut
program required state electric utilities to either
produce renewable energy or to purchase renewable
energy credits from “renewable energy producers
located in the region.” Allco Fin. Ltd. v. Klee, 861 F.3d
82, 86 (2d Cir. 2017). Despite there being a national
market for renewable energy credits, the court found
that the state program advanced legitimate interests
in the local market. Id. (noting that the program
promotes increased production of renewable power
generation in the region and, by extension, the
protection of its citizens’ health, safety, and reliable
access to power). The court also noted that FERC had
established a regional market (and geographic
boundaries), and that FERC’s involvement weighed
strongly against intervention by the court. Id. (noting
FERC and Congress are better-situated to supervise
and determine economic and health and safety effects
Other Supreme Court decisions have acknowledged that local
utilities with monopolies are not similarly situated to private
businesses when analyzing the dormant Commerce Clause. See,
e.g., United Haulers Ass’n, Inc. v. Oneida-Herkimer Solid Waste
Mgmt. Auth., 550 U.S. 330, 342-43 (2007) (citing Tracy); Levin v.
Commerce Energy, Inc., 560 U.S. 413, 429 n.9 (2010) (citing
Tracy); Camps Newfound/Owatonna, Inc. v. Town of Harrison,
520 U.S. 564, 607 (1997) (Scalia, J., dissenting) (observing that
Tracy “effectively creates what might be called a ‘public utilities’
exception to the negative Commerce Clause”).
7

App-41
of geographic boundaries). The Second Circuit held
that the “means and ends” that Connecticut selected
in its renewable energy credit program were “well
within the scope of what Congress and FERC have
traditionally allowed the States to do in the realm of
energy regulation.” Id. at 106.
After careful analysis, the Court concludes that
the reasoning behind the dismissal of the dormant
Commerce Clause challenge in Tracy applies to the
present case. Minn. Stat. § 216B.246 is part of the
Minnesota’s broader regulation of the provision of
electricity to the consumer market. Many of the
entities that own existing transmission facilities are
regulated public utilities, who serve captive markets
and have monopolies with respect to the sale of
electricity to consumers. Thus, for these sales, there is
no competition and the dormant Commerce Clause
does not apply. See, e.g., Tracy, 519 U.S. at 303.
However, the Court recognizes that local utilities in
Minnesota and out-of-state entities may compete for
the right to build transmission lines. In this case, LSP
alleges that it wishes to compete against Minnesota
electric utilities for the right to build transmission
lines, but that it is being discriminated against by
Minn. Stat. § 216B.246. (Compl. ¶¶ 75-78.) Under
Tracy, however, the Court grants controlling weight to
the monopoly market. Minnesota is entitled to
consider the effect on the public utilities and the
consumers that the utilities serve and “to give the
greater weight to the captive market and the local
utilities’ singular role in serving it.” Tracy, 519 U.S. at
304. Moreover, like in Tracy, where the Supreme
Court determined that the possibility of a negative
impact on the ability of utilities to serve consumers in

App-42
the monopoly market weighed against invalidating
the challenged statute, the same holds true here.
Tracy, 519 U.S. at 309. The reasons cited in support of
giving greater weight to the monopoly market in Tracy
apply here; namely, to avoid any jeopardy or
disruption to the service of electricity to the state
electricity consumers and to allow for the provision of
a reliable supply of electricity.
In addition, as was the case in Tracy, the economic
consequences of any Court intervention to strike down
Minn. Stat. § 216B.246 are unclear. Id. at 307. Under
Minn. Stat. § 216B.46, Minnesota not only gives
existing owners a right of first refusal to build new
transmission lines that will connect to their existing
facilities, but in return Minnesota also places
extensive regulatory burdens on those owners. Any
intervention by the Court could upset the balance
between those burdens and regulation. Importantly,
Congress and FERC have both indicated that
Minnesota is entitled to make the policy decision to
adopt a right of first refusal to build new transmission
lines. And as it has been noted many times before,
Congress, FERC, and the Minnesota legislature are
“better-situated than the courts” to “determine the
economic wisdom and the health and safety effects” of
a decision on the correct balance between competition
and a right of first refusal in the area of the building
of electric transmission facilities. See, e.g., Allco, 861
F.3d at 107. The Court, therefore, properly defers to
their judgment.
The Court has considered, but is not persuaded
by, LSP’s arguments that Tracy is inapposite. First,
LSP argues that Minn. Stat. § 216B.246 does not

App-43
single out providers that serve retail consumers as the
sole beneficiaries of the statute’s protection, but
instead that it protects all transmission owning
entities in Minnesota. This distinction, however, is not
persuasive. While it is true that Minn. Stat.
§ 216B.246 relates to transmission lines, the main
principle
of
Tracy—that
there
cannot
be
discrimination between entities that are not similarly
situated—applies here. Regulated utilities (the
existing transmission line owners with a right of first
refusal) are not similarly situated with unregulated
entities such as LSP. See id. at 298-99. Second, LSP
argues that the Court is not required to defer to
Minnesota’s policy decision, and in particular because
this case, unlike in Tracy, does not involve a tax law
(and its “subtle complexities”). The Supreme Court in
Tracy, however, explained that the dormant
Commerce Clause “prohibits state taxation or
regulation that discriminates against or unduly
burdens interstate commerce.” 519 U.S. at 287
(emphasis added). The relevant case law does not
demand that tax statutes receive greater deference
than regulatory statutes under the Commerce Clause.
For all of the above reasons, the Court concludes
that Tracy forecloses LSP’s allegation that Minn. Stat.
§ 216B.246 overtly discriminates against out-of-state
transmission developers.
B. Overt Discrimination
Even if LSP’s claim of overt discrimination was
not foreclosed by Tracy, LSP’s argument that Minn.
Stat. § 216B.246 facially discriminates because it
grants incumbents the right to build federally
approved transmission line projects in Minnesota

App-44
fails. There is no dispute that the statute grants a
preference to “incumbent electric transmission
owners,” but that preference does not discriminate
against out-of-state entities. Instead, it affords
companies whose facilities will connect to new
transmission lines the first chance to build the new
line. The statute’s preference does not apply to all
incumbent electric transmission owners, but only to
those directly connected to the proposed line, whether
those incumbents are in-state or out-of-state. The
statute draws a neutral distinction between existing
electric transmission owners whose facilities will
connect to a new line and all other entities, regardless
of whether they are in-state or out-of-state. In fact, the
Complaint lists the sixteen entities that would qualify
as incumbents under Minn. Stat. § 216B.246, and five
of those entities are headquartered outside of
Minnesota. (Compl. ¶¶ 64-66; Doc. No. 39 at 26-27.)
In response, LSP argues that any owner of a
transmission facility in Minnesota, regardless of their
actual headquarters, should be considered “in-state.”
The Court disagrees. Incumbency bias is not the same
as discrimination against out-of-state interests. See
Colon Health Ctrs. of Am., LLC v. Hazel, 813 F.3d 145,
154 (4th Cir. 2016) (explaining that an incumbent
recipient of a state benefit is not necessarily an “instate resident”). Here, out-of-state companies can
benefit from Minn. Stat. § 216B.246 on the same
terms as a Minnesota company.
For the above reasons, the Court concludes that
LSP has failed to demonstrate that Minn. Stat.

App-45
§ 216B.246
entities.8

discriminates

against

out-of-state

C. Pike Test
LSP argues that even if Minn. Stat. § 216B.246
regulates evenhandedly, it violates the Commerce
Clause under the Pike balancing test. Specifically,
LSP claims that Minn. Stat. § 216B.246 “unduly
burdens interstate commerce by restricting entry to
the transmission market in Minnesota, thus walling
the state from new market participants.” (Compl. ¶
91.) Even where a law does not patently discriminate,
it may still be invalid under the dormant Commerce
Clause if its burden on interstate commerce is “clearly
excessive in relation to the putative local benefits.” S.
Union, 289 F.3d at 507 (quoting Pike, 397 U.S. at 142).
The Pike test requires the balancing of a legitimate
public interest against any incidental burdens on
interstate commerce.
Minnesota has a strong and well-recognized
interest in regulating the market for electricity that
serves its citizens. See, e.g., Ark. Elec. Coop Corp. v.
Ark. Pub. Serv. Comm’n, 461 U.S. 375, 377 (1983)
(“[t]he regulation of utilities is one of the most
important functions traditionally associated with the
police powers of the States”). Minnesota also has a
long history of regulating both the construction and
operation of transmission facilities. See N. D. v.
Heydinger, 825 F.3d 912, 922 (8th Cir. 2016). The
Minnesota legislature decided to create a right of first
refusal as part of its broader scheme regulating
8 LSP has also failed to meet its burden to demonstrate that
Minn. Stat. § 216B.246 has a discriminatory purpose or effect.

App-46
utilities. Courts have upheld similar statutes in the
face of dormant Commerce Clause challenges. See,
e.g., S. Union, 289 F.3d at 509. Indeed, the benefits of
utility regulation have been presumed by courts. See
id. (noting that “local public utility rate regulation is
presumptively valid”). And courts have consistently
noted that legislatures are uniquely positioned to
make determinations regarding the “health, life, and
safety” of their citizens, even if state legislation might
indirectly affect commerce. Tracy, 519 U.S. at 306. In
enacting Minn. Stat. § 216B.246, the Minnesota
legislature determined that it is necessary to provide
“the retail consumers of natural gas and electric
service in this state with adequate and reliable
services at reasonable rates,” and that the legislation
was necessary “to avoid unnecessary duplication of
facilities which increase the cost of service to the
consumer” and “to minimize disputes between public
utilities which may result in inconvenience or
diminish efficiency in service to the consumers.” Minn.
Stat. § 216B.01. The Court concludes that Minnesota
has demonstrated a strong interest in enacting Minn.
Stat. § 216B.246 and various resulting benefits.
Turning to the second prong, the Court balances
the local benefits of Minn. Stat. § 216B.246 with any
incidental burden that the statute places on interstate
commerce. LSP argues that the cumulative effect of
individual states’ right-of-first-refusal laws would
nullify Order 1000’s abolition of federal right-of-firstrefusal laws and undermine its goals by effectively
eliminating competition for transmission line projects.
LSP asserts that giving incumbents the right of first
refusal would eliminate competitive bidding for these
projects and would place a significant burden on

App-47
interstate commerce. Moreover, LSP contends that
Minn. Stat. § 216B.246 burdens LSP individually by
effectively barring it from competing via the FERCapproved process for regionally planned projects
approved for construction in Minnesota. Finally, LSP
asserts that the nature of the Pike balancing test is
fact-intensive, making any decision premature.
As explained above, Minn. Stat. § 216B.246 does
not provide a preference to in-state companies.
Instead, it gives a right of first refusal to companies
(in-state or out-of-state) whose facilities will connect
to the proposed transmission line. Any incidental
effects on interstate commerce caused by giving
existing facilities a right of first refusal are
insufficient to outweigh the significant local interest
described above. See, e.g., Ark. Elec. Coop. Corp., 461
U.S. at 395. In Tracy, the Supreme Court explains that
“there is no clear line between [the] two strands of
analysis”—facial discrimination and the “so-called
Pike undue burden test.” Tracy, 519 U.S. at 298 n.12.
The Supreme Court also noted the narrow application
of the Pike test:
Nonetheless, a small number of our cases
have invalidated state laws under the
dormant Commerce Clause that appear to
have been genuinely nondiscriminatory, in
the sense that they did not impose disparate
treatment on similarly situated in-state and
out-of-state interests, where such laws
undermined a compelling need for national
uniformity in regulation.
Id. Here, LSP has not shown that Minn. Stat.
§ 216B.246 undermines a compelling need for national

App-48
uniformity. In fact, FERC, the agency charged by
Congress with ensuring national regulation of electric
markets, expressly approved the use of state right-offirst-refusal laws. Midwest Indep. Transmission Sys.
Operator, Inc., 150 FERC ¶ 61037 at 18. FERC
explained that it had “struck an important balance”
between promoting competition and allowing the
continued “regulation of matters reserved to the
states.” 150 FERC at 61166 ¶ 27. In its Complaint,
LSP acknowledges that FERC’s rules are not intended
to override transmission siting decisions by the state
and that FERC approved a provision in the MISO
tariff that incorporates Minnesota’s right-of-first
refusal. (Compl. ¶¶ 44-45.) Where Congress and FERC
have endorsed the state’s role, a regulation will pass
the Pike test if it was enacted in a “legitimate state
pursuit.” Allco, 861 F.3d at 108.
After balancing under the Pike test, the Court
concludes that any burden on interstate commerce is
outweighed by the benefits of Minnesota’s right-offirst-refusal statute. Moreover, the Court notes that
economic and free market arguments are better left to
legislators. See Colon Health Ctrs., 813 F.3d at 158.
For all of the above reasons, the Court determines
that Minn. Stat. § 216B.246 does not violate the
dormant Commerce Clause. LSP’s Complaint is,
therefore, dismissed.
ORDER
Based upon the foregoing, and the files, records,
and proceedings herein, IT IS HEREBY ORDERED
that Defendants’ Motions to Dismiss (Doc. Nos. [18,
37, 48]) are GRANTED and Plaintiff’s Complaint
(Doc. No. [1]) is DISMISSED WITH PREJUDICE

App-49
LET
JUDGMENT
ACCORDINGLY.

BE

ENTERED

Dated: June 21, 201[8] s/Donovan W. Frank
DONOVAN W. FRANK
United States District
Judge

App-50
Appendix D
RELEVANT STATUTORY PROVISIONS
Minn. Stat. § 216B.246. Federally approved
transmission lines; incumbent transmission
lineowner rights
Subdivision 1. Definitions. (a) For purposes of this
section, the terms defined in this subdivision have
the meanings given them.
(b) “Electric transmission line” means a highvoltage transmission line with a capacity of 100
kilovolts or more and associated transmission
facilities.
(c) “Incumbent electric transmission owner”
means any public utility that owns, operates, and
maintains an electric transmission line in this
state; any generation and transmission
cooperative electric association; any municipal
power agency; any power district; any municipal
utility; or any transmission company as defined
under section 216B.02, subdivision 10.
Subd. 2. Incumbent electric transmission owner
rights. An incumbent electric transmission owner has
the right to construct, own, and maintain an electric
transmission line that has been approved for
construction in a federally registered planning
authority transmission plan and connects to facilities
owned by that incumbent electric transmission owner.
The right to construct, own, and maintain an electric
transmission line that connects to facilities owned by
two or more incumbent electric transmission owners
belongs individually and proportionally to each
incumbent electric transmission owner, unless

App-51
otherwise agreed upon in writing. This section does
not limit the right of any incumbent electric
transmission owner to construct, own, and maintain
any transmission equipment or facilities that have a
capacity of less than 100 kilovolts.
Subd. 3. Commission procedure. (a) If an electric
transmission line has been approved for
construction in a federally registered planning
authority transmission plan, the incumbent
electric transmission owner, or owners if there is
more than one owner, shall give notice to the
commission, in writing, within 90 days of
approval, regarding its intent to construct, own,
and maintain the electric transmission line. If an
incumbent electric transmission owner gives
notice of intent to build the electric transmission
line then, unless exempt from the requirements of
section 216B.243, within 18 months from the date
of the notice described in this paragraph or such
longer time approved by the commission, the
incumbent electric transmission owner shall file
an application for a certificate of need under
section 216B.243 or certification under section
216B.2425.
(b) If the incumbent electric transmission owner
indicates that it does not intend to build the
transmission line, such notice shall fully explain
the basis for that decision. If the incumbent
electric transmission owner, or owners, gives
notice of intent not to build the electric
transmission line, then the commission may
determine whether the incumbent electric
transmission owner or other entity will build the

App-52
electric
transmission
line,
taking
into
consideration issues such as cost, efficiency,
reliability, and other factors identified in this
chapter.
Minn. Stat. § 216B.02, subd. 10
*

*

*

Subd. 10. Transmission company. “Transmission
company” means persons, corporations, or other legal
entities and their lessees, trustees, and receivers,
engaged in the business of owning, operating,
maintaining, or controlling in this state equipment or
facilities for furnishing electric transmission service in
Minnesota, but does not include public utilities,
municipal electric utilities, municipal power agencies,
cooperative electric associations, or generation and
transmission cooperative power associations.

